App. 1
APPENDIX A
UITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK
) Case No.
) 19-cv-6309

Rostislav Khrapko,

)

Plaintiff,

) Jury Trial: Yes
)

v.
Kristin Splain,
Mark Schlechter, Jody Wood,
Kathryn Muller,
County of Steuben,
Defendants.

)
)
)
)
)
)
)
)

CIVIL RIGHTS
COMPLAINT:
42 U.S.C. § 1983:
FOURTEENTH
AMMENDMENT
(DUE PROCESS)
(EQUAL
PROTECTION)

DECISION AND ORDER
19-CV-6309L
Plaintiff Rostislav Khrapko, appearing pro se,
commenced this action under 42 U.S.C. § 1983.
Plaintiff has sued four individuals-Kristin Splain,
Mark Schlechter, Jody Wood and Kathryn Mullerand the County of Steuben (New York), asserting
claims relating to divorce proceedings between
plaintiff and his now ex-wife.
Defendants Splain, Schlechter, and Wood, all of
whom are represented by the New York State
Attorney General, have moved to dismiss the claims

App. 2
against them pursuant to Rule 12(b) of the Federal
Rules of Civil Procedure. For the reasons that follow,
the motion is granted.

BACKGROUND
According to the amended complaint (Dkt. #3), the
divorce action was commenced in Supreme Court,
Steuben County, on August 10, 2016. On August 12,
2016, the court issued an order appointing defendant
Splain as referee pursuant to N.Y. CPLR § 4311with
authority to “hear and determine all issues.” (Dkt. #3
at 3, 16.) Plaintiff alleges that contrary to what was
stated in that order, he had not consented to Splain’s
appointment, but that he did eventually consent in
May 2017, during the child custody trial, “under the
threat of starting the trial over again ....” (Dk. #3 at
3.)

At one point in the divorce proceedings, Splain
issued a decision concerning the distribution of the
parties’ assets. Plaintiff contends that the decision
contains, and is based on, several factual errors.
Further proceedings ensued, with results that were
again not to plaintiffs liking, and which he again
alleges were based on falsehoods and “actual malice”
against him on Splain’s part.
Plaintiff alleges that he filed a motion or objections
to one of Splain’s orders, and that he received a
response from defendant Court Attorney Mark
Schlechter. Plaintiff has attached to the amended
complaint two letters to him from Schlechter stating
that if plaintiff “wish[ed] to contest the findings and
conclusions made by the Court, [the appropriate]
remedy would be to file an appeal to the Appellate

App. 3
Division, Fourth Department,” and suggesting that
plaintiff consider seeking the advice of counsel if he
wished to pursue the matter further. (Dkt. #3 at 18,
19.)
Plaintiff further alleges that in January 2019, he
filed a motion to reconsider one of Splain’s orders
concerning the disposition of marital assets. Splain
set a return date for the motion to be submitted on the
papers, without oral argument. Later, he alleges, he
learned that defendant Court Clerk Jody Wood
changed the schedule, and set an appearance date,
without notifying plaintiff.1
Based on these allegations, plaintiff seeks: (1)
declaratory and injunctive relief and money damages
against Splain, based on alleged due process
violations discrimination; (2) damages against
Schlechter, also based mostly on alleged due process
violations; (3) damages against Wood, based on due
process violations; and claims against (4) Steuben
County Commissioner of Social Services Kathryn
Muller and (5) Steuben County, based on their alleged
actions relating to plaintiff’s alimony obligations.
Muller and Steuben County (who are represented by
private counsel) have answered the complaint (Dkt.
#6, #7) but have not moved against it at this point.

1 From the papers attached to the complaint, it appears that
plaintiffs wife filed a cross-motion for contempt, and that it was
her motion that was scheduled for an in-court appearance. See
Amended Complaint Ex.

App. 4
DISCUSSION
I. Domestic Relations Exception
The moving defendants contend that plaintiffs
claims against them should be dismissed for lack of
subject matter jurisdiction. Defendants rely on the
“domestic relations exception” to federal jurisdiction,
which “divests the federal courts of power to issue
divorce, alimony, and child custody decrees.”
Ankenbrandt v. Richards, 504 U.S. 689, 703 (1992).
See also Khalid v. Sessions, 904 F.3d 129, 133 (2d Cir.
2018) (“Family law ... is an area of law that federal
courts and Congress leave almost exclusively to state
law and state courts”); Tomczyk v. New Unified Court
System, No. , 2019 WL 2437849, at *2 (E.D.N.Y. June
10, 2019) (“Under the domestic relations exception,
‘divorce, alimony, and child custody decrees’ remain
outside federal jurisdictional bounds”) (citing
Marshall v. Marshall, 547 U.S. 293, 308 (2006)).
“[T]he Second Circuit has repeatedly held that
‘subject matter jurisdiction may be lacking in actions
directed at challenging the results of domestic
relations proceedings,’ and has made clear that ‘a
plaintiff cannot obtain federal jurisdiction merely by
rewriting a domestic dispute as a tort claim for
monetary damages.’” Seluaggio v. Hiatt, No. 19-CV3185, 2019 WL 2515618, at *2 (E.D.N.Y. June 18,
2019) (quoting Martinez v. Queens County Dist. Att’y,
596 F. Appx. 10, 12 (2d Cir. 2015), and Schottel v.
Kutyba, No. 06-1577-cv, 2009 WL 230106, at *1 (2d
Cir. Feb. 2, 2009)).
To be sure, the exception is not exceptionally
broad. See Williams v. Lambert, 46 F.3d 1275, 1283
(2d Cir. 1995) (describing exception as “very narrow”).
It does not mean that federal courts lack jurisdiction

App. 5
to hear any claim even touching upon a domestic
dispute. See Deem v. DiMella-Deem, No. 18-CV-11889,
2019 WL 1958107, at *12 (S.D.N.Y. May 2, 2019). But
if the controversy “begin[s] and end[s] in a domestic
dispute,” federal courts generally lack jurisdiction, or
should abstain from exercising jurisdiction, to
intervene.2 Schottel, 2009 WL 230106, at *1.
To some extent, plaintiffs claims in this case do
directly implicate the outcome of the state court
proceedings. For example, he seeks “declaratory relief
order to restore the due process of Plaintiffs motions,”
and “injunctive relief judgement on [his] motion of 114-19...” (Dkt. #3 at 8.)
To the extent that plaintiffs claims challenge the
outcome, or any aspect of the underlying proceedings
in state court, those claims are dismissed, pursuant to
the domestic relations exception to federal
jurisdiction. This Court lacks jurisdiction to hear
those claims, and to the extent that plaintiff frames
his claims in terms of due process, the Court abstains
from exercising jurisdiction over any such claims
seeking relief that could affect the outcome of the state
court proceedings.

2 Courts addressing the exception have discussed it both in
terms of lack of subject matter jurisdiction and abstention, which
are separate principles. A court cannot abstain from exercising
jurisdiction unless it has jurisdiction in the first place. But the
distinction is of no moment here, as explained in the body of this
Decision and Order.

App. 6
II. Due Process
Plaintiff has alleged that all the moving
defendants denied him due process. He seeks
damages from them based on that alleged violation of
his constitutional rights.
Since the claims for damages do not directly
implicate his divorce proceedings, they are not barred
by the domestic relations exception. But they are
meritless and must be dismissed.
It is not clear from plaintiffs complaint whether he
is alleging a violation of substantive or procedural due
process rights. Because some allowance must be made
for the fact that plaintiff is proceeding pro se, the
Court will consider both.
A plaintiff states a claim for a denial of substantive
due process when he alleges conduct that is “so
egregious, so outrageous, that it may fairly be said to
shock the contemporary conscience.” County of
Sacramento v. Lewis, 523 U.S. 833, 847 n.8 (1998).
“When government action depriving a person of life,
liberty, or property survives substantive due process
scrutiny, it must still be implemented in a fair
manner. This requirement has traditionally been
referred to as ‘procedural’ due process.” Valerio v.
Barr, No. 19-CV-519, 2019 WL 3017412, at *3
(W.D.N.Y. July 10, 2019). To prevail on a procedural
due process claim, the plaintiff must demonstrate: “(1)
that the plaintiff possessed a constitutionally
protected interest, (2) that such interest was deprived
as a result of government action, (3) and that the
deprivation
occurred
without
constitutionally
adequate pre- or post-deprivation process.” Toth ex rel.
Toth v. Bd. Educ., Queens Dist. 25, No. 07-CV-3239,
2008 WL 4527833, at *4 (E.D.N.Y. Sept. 30, 2008).

App. 7
Plaintiff has not alleged facts supporting a claim of
a substantive due process violation. He has alleged
nothing more than that defendants took certain
actions, or failed to do certain things, that discomfited
him or adversely affected him in the context of the
divorce proceeding. But those acts fall far short of
what is needed to make out a substantive due process
claim. See Kochan v. Schawbenbauer, No. 17-cv-452,
2018 WL 3848432, at *6-*7 (W.D.N.Y. Aug. 13, 2018)
(dismissing plaintiffs substantive due process claim
against town court clerk based on clerk’s alleged
errors in state court proceeding).
Nor has plaintiff stated a claim for denial of
procedural due process. He has done little more than
repackage everything that he found objectionable in
the state court, under the guise of a federal procedural
due process claim. In some instances (such as
Schlechter’s letters to plaintiff), it is not even clear
what the alleged deprivation consisted of, but in any
event, plaintiff has not shown that he lacked
constitutionally adequate avenues of relief in the state
courts. Plaintiff does not allege that the state
proceedings were fundamentally unfair, but that the
individual defendants acted wrongfully. If that is
correct, he can seek a remedy in state court. See
Rivera-Powell v. N.Y.C. Bd. of Elections, 470 F.3d 458,
465 (2d Cir. 2006) (“When the state conduct in
question is random and unauthorized, the state
satisfies procedural due process requirements so long
as it provides meaningful post-deprivation remedy”).
In short, it appears that plaintiff would have this
Court sit as a “super appeals” court to review the
correctness of state court decisions. The Court may
not and will not do so. See Lucas v. Los Angeles County
Dep’t of Pub. Soc. Services, No. CV 19-364, 2019 WL

App. 8
2932549, at *4 (C.D.Cal. June 14, 2019) (“A federal
court does not act as a super-appellate court for state
judicial proceedings. To the contrary, federal courts
are precluded from reviewing or overturning state
court actions”) (citing Rooker v. Fidelity Trust Co., 263
U.S. 413 (1923), and District of Columbia Court of
Appeals v. Feldman, 460 U.S. 462 (1983)).
III. Equal Protection
Plaintiff makes several cursory references in his
complaint to his having been discriminated against
during the state court proceedings. See, e.g., Dkt. #3
at 7 H 23 (“Plaintiff was discriminated compared to the
treatment received by the Other Party,” i.e., his exwife).
To the extent that such allegations can be read to
assert a claim of denial of equal protection, they are
facially meritless and must be dismissed. “To state an
equal protection claim, [the] plaintiff must allege facts
showing that: (1) he was treated differently from
similarly situated individuals and (2) that the
difference in or discriminatory treatment was based
on ‘impermissible considerations such as race,
religion, intent to inhibit or punish the exercise of
constitutional rights, or malicious or bad faith intent
to injure a person.’” Trowell v. Theodarakis, No. 3:18CV-446, 2018 WL 3233140, at *3 (D. Conn. July 2,
2018) (quoting Diesel v. Town of Lewisboro, 232 F.3d
92, 103 (2d Cir. 2000)). A plaintiff may also state an
equal protection violation claim under the “class of
one” theory by showing that he was “intentionally
treated differently from others similarly situated and
that there [was] no rational basis for the difference in
treatment.” Village of Willowbrook v. Olech, 528 U.S.
562, 564 (2000).

App. 9
Plaintiff has not alleged facts supporting an equal
protection claim under either theory. He has simply
alleged, in conclusory fashion, that his (now ex-) wife
received better treatment at the hands of the state
court than he did. Parties to an adversarial court
proceeding sometimes the hands of the state court
than he did. Parties to an adversarial court
proceeding sometimes divorce cases. That is not to say
that state courts are free to trample on federal
constitutional rights, but only that to state a federal
claim, more is required than a bald assertion that the
plaintiff was “discriminated” against, vis-a-vis the
other party. Were it otherwise, virtually every
disgruntled litigant could seek redress in federal
court, alleging an equal protection violation. That is
not the law, and plaintiff has not made out a facially
valid equal protection claim.
IV. Immunity
While the Court’s findings render it unnecessary
to reach defendants’ immunity defense, I nonetheless
note my agreement with defendants that even if
plaintiff had stated a valid claim against any of the
defendants, over which this Court has jurisdiction,
defendants are immune from liability.
Splain is immune under the doctrine of absolute
judicial immunity. The law is clear that court referees
are entitled to absolute judicial immunity from
liability with respect to acts taken in the scope of their
duties. See Green v. Kadilac Mortg. Bankers, Ltd., 936
F.Supp. 108, 115 (S.D.N.Y. 1996)); Weiss v.
Feigenbaum, 558 F.Supp. 265, 272 (E.D.N.Y. 1982).
See also Bliven v. Hunt, 579 F.3d 204, 209 (2d Cir.
2009) (“[E]ven allegations of bad faith or malice
cannot overcome judicial immunity”).

App. 10
In addition, court clerks and other court employees
are entitled to immunity for ministerial and
administrative acts taken within the scope of their
duties. See Rodriguez v. Weprin, 116 F.3d 62, 66 (2d
Cir. 1997); Pierre v. EDNY, No. 18-CV-12193, 2019
WL 1988528, at *3 (S.D.N.Y. May 3, 2019); Mitchell v.
Conn. Region 14 Dist. Probate Court, No. 14-cv-630,
2015 WL 4094188, at *4 (D.Conn. July 7, 2015). Thus,
Schlechter and Wood are immune from liability as
well.
Although plaintiff has attempted to preempt an
immunity defense by alleging by alleging that the
“nature of [defendants’] actions” precludes such a
defense, see Dkt. #3 at 8-10, that attempt is
unavailing. The facts alleged by plaintiff show that
defendants were acting within the scope of their
duties. That plaintiff was unhappy with their actions
does not alter the result.

V. Official-Capacity Claims
To the extent that any of plaintiffs claims are
brought against defendants in their official capacities,
those claims are dismissed. Such claims may only be
brought to seek equitable relief, and for the reasons
stated above, there is no basis for any relief here, legal
or equitable.

App. 11
CONCLUSION
The motion to dismiss brought by defendants
Kristin Splain, Mark Schlechter, and Jody Wood to
dismiss the complaint (Dkt. #10) is granted, and the
complaint is dismissed with prejudice as to those
three defendants.
IT IS SO ORDERED.
/s/ David G. Larimer
DAVID G. LARIMER
United States District Judge
Dated: Rochester, New York
July 23, 2019.

App. 12
APPENDIX B

United States Court of Appeals
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 12th day of December,
two thousand nineteen.
Present:
Robert D. Sack,
Barrington D. Parker,
Denny Chin,
Circuit Judges.
Rostislav Khrapko,
v.
Kristin Splain, et al.,

Plaintiff-Appellant,
Case No. 19-2619

Defendants-Appellees,
Kathryn Muller, County of Steuben,
Defendants.
This Court has determined sua sponte that it lacks
jurisdiction over this appeal because the district court
has not issued a final order as contemplated by 28
U.S.C. § 1291. See Petrello v. White, 533 F.3d 110, 113
(2d Cir. 2008). Upon due consideration, it is hereby
ORDERED that the appeal is DISSMISSED.
FOR THE COURT: /s/
Catherine O’Hagan Wolfe, Clerk of Court

